No. ______________
IN THE
SUPREME COURT OF THE UNITED STATES
JUSTICE TOWAN ROUNDTREE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, JUSTICE TOWAN ROUNDTREE, pursuant to Rule 39, Supreme
Court Rules and 18 U. S. C. 3006A(d)(7), requests leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Fourth Circuit
without prepayment of costs and proceed in forma pauperis.
Petitioner was represented by counsel under the Criminal Justice Act in the
district court and on appeal to the United States Court of Appeals for the Fourth
Circuit. Leave to proceed in forma pauperis under the Criminal Justice Act before
the district court and Court of Appeals was sought and granted.

Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached.
See S. Ct. R. 39.1.
Respectfully submitted,

s/ Jeremy A. Thompson
Jeremy A. Thompson, Esquire
Assistant Federal Public Defender
1901 Assembly Street, Suite 200
Columbia, South Carolina 29201
Telephone: (803) 765-5077
Jeremy_Thompson@fd.org
COUNSEL OF RECORD
FOR PETITIONER
Columbia, South Carolina
March 12, 2021

2

